Effective 10/1/17. For questions about your balance, call the customer service number on your Visa statement.

DEFINITIONS
The following definitions apply to this Agreement:
• ACCOUNT: The line of credit associated with your Platinum
Visa Credit Card Account with us.
• ACCOUNT BALANCE: All authorized charges, plus any
finance charges assessed on your Account, plus any other
fees and charges which you owe to us under the terms of
this Agreement.
• ANNUAL PERCENTAGE RATE OR APR: A rate, shown as a
percentage, used to calculate interest on the balance on
your Account.
• AUTHORIZED USER: Any person you allow to use your
Account with a Card we provided with that person’s name.
• BALANCE TRANSFER: Use of a Balance Transfer offer,
including use of a check that accesses your Account for any
transaction, or the transfer of a balance from another credit
account to your Account.
• BILLING PERIOD: The period of time between each date
when we create a periodic statement for your Account. A
Billing Period is usually 28 – 33 days. For each Billing Period,
your statement will show any Transactions, other charges,
payments and other credits posted during that Billing
Period.
• CARD: The Platinum Visa Credit Card issued to you (and any
duplicates and renewals we may issue) used to access your
Account to obtain credit.
• CASH ADVANCE: Use of your Card to get cash, including
foreign currency, or for what we consider a cash-like
transaction. Examples include using your Card for: ATM and
teller withdrawals, wire transfers and money orders.
• CONSUMER REPORTING AGENCY: An organization, such
as Experian, Equifax and TransUnion, that compiles credit
information for the purpose of generating consumer credit
reports. It is also known as a “credit bureau” and a “credit
reporting agency.”
• LATE PAYMENT: A payment is late if you do not pay at least
an amount equal to the Minimum Monthly Payment by the
Payment Due Date.
• PURCHASE: Use of your Card to buy goods and services.
Balance Transfers and Cash Advances are not Purchases.
• RETURNED PAYMENT: A payment that is not honored by
your financial institution.
• TRANSACTION: A Purchase, Balance Transfer or Cash
Advance, as applicable.
• YOU, YOUR and YOURS: Each and all of those who apply for
or use the Card and/or Account.
• WE, US, OUR and CREDIT UNION: Schools Financial Credit
Union.
YOUR ACCOUNT
BINDING AGREEMENT: This Agreement takes effect once
you use your Card. Even if you do not use your Card,
this Agreement will take effect unless you contact us to
cancel your Account within 30 days after we sent you this
Agreement.
ACCOUNT USE: Your Account use is subject to this
Agreement. All Transactions are subject to our approval.
You may use your Card to purchase goods and services in
person, online and by mail or telephone from merchants and
others who accept Visa Credit Cards. In addition, you may

obtain Cash Advances from the Credit Union, from other
financial institutions or select merchants participating in the
Visa program and from automated teller machines (ATMs)
that provide access to the Visa system. Not all merchants or
ATMs provide such access. You will need to use your personal
identification number (PIN) to obtain a cash advance from an
ATM. A PIN may be obtained by calling 888-886--0083. Finally,
you may use your Account to transfer balances from other
creditors, provided that we approve your request. Balance
Transfers are subject to a $25 minimum transfer amount
requirement.
RESPONSIBILITY: You must pay us for all amounts due on
your Account, including: (1) Transactions you make, even if
you did not present your Card or sign for the Transaction; (2)
Transactions an Authorized User makes; (3) Transactions that
other people make if you or an Authorized User let them use
your Account; and (5) any fees and interest charges on the
Account. Your agreement to repay us extends to the use of
the Account by you or any other person you permit to use
the Account, even if that person exceeds your permission.
You cannot disclaim responsibility by notifying us, although
we will close the Account if you so request. Your obligation
to pay the Account Balance continues even though an
agreement, divorce decree or other court judgment to
which we are not a party may direct someone else to pay the
Account Balance. The Cards remain our property and you
must recover and surrender to us all Cards upon our request
and/or upon termination of this Account.
JOINT ACCOUNTS: If this is a joint Account, each of you will
be individually and jointly responsible for paying all amounts
owed under this Agreement. This means that we can require
any one of you individually to repay the Account Balance.
Each of you authorizes the other to make Transactions
individually. Any one of you may close the Account and
such closure will be effective as to all of you. You agree that
all notices regarding the Account may be sent solely to the
cardholder whose name and address appears on our billing
records. If this is a joint account, neither party can be released
from his or her obligations except upon the Credit Union’s
approval.
SIGNATURE REQUIREMENT: In order for your Card to be valid,
you must activate and sign the Card as soon as you receive
it. However, your liability does not depend on whether or not
you sign your Card.
CREDIT LIMIT AND CASH ADVANCE LIMIT: We assign a
Credit Limit to your Account. Part of this Credit Limit may
be available for Cash Advances. Your Cash Advance Limit is
100% of your available credit. Your Credit Limit will initially be
disclosed in the “Additional Disclosure – Federal Truth-inLending Act” and will be reflected on each periodic statement.
You agree to manage your Account so that: (1) your Account
Balance (including fees and charges) is not more than your
Credit Limit; and (2) your Cash Advance balance (including
fees and charges) is not more than your Cash Advance Limit.
However, if your Account Balance exceeds your Credit Limit or
Cash Advance Limit, you are still obligated to pay us. We may
increase or decrease your Credit Limit at any time and we may
notify you of such increase or decrease by mail or through
a statement sent to the primary accountholder’s address of
record, in accordance with applicable legal requirements.
If you object to any Credit Limit increase, you must notify
us immediately. You or any co-borrower on the Account

M#123198

Visa® Credit Card Agreement
and Federal Truth-in-Lending Disclosure

BR154 10/2017

These coverages and descriptions supersede any coverages and descriptions you may have received earlier.
Please read and retain for your records.

may request a change to the Credit Limit orally, in writing
or electronically, but any such request must be approved
by us. If your Credit Limit is increased, you are immediately
responsible for the new Credit Limit and any increase in
the Account Balance even when it differs from an amount
previously agreed to orally or in writing.
CONSUMER PURPOSES: You may use your Account only
for personal, family or household uses; you may not use the
Account for business purposes. If you do use your Account for
business purposes, this Agreement still applies and you must
pay us for those Transactions. We may close your Account if
we learn that you are using it for business purposes.
UNLAWFUL TRANSACTIONS: Your Card or Account may
not be used directly or indirectly in a manner that would
constitute a crime under local, state or federal law, or in
any illegal activity, including without limitation (1) any
“racketeering activity” as defined in 18 U.S.C. § 1961, or
(2) any gambling, gaming, betting or similar activity or
transaction. Further, you may not use your Card or Account
for the purchase of any goods or services on the Internet that
involve gambling, gaming, betting or any similar transaction
or activity. Such transactions include, but are not limited to,
any quasi-cash or online gambling transaction, any electronic
commerce transaction conducted over an open network,
and any betting transaction including the purchase of lottery
tickets or casino gaming chips/checks or off-track betting
or wagering. Display of a payment card logo by an online
merchant does not mean that internet gambling or other
transactions are legal in the jurisdiction in which you are
located. However, in the event that a charge or transaction
described in this paragraph is approved and processed, you
will still be responsible for such charges. If you use your Card
or Account directly or indirectly in an unlawful manner you
understand that your Account may be declared in default
and that we may exercise any rights available to us, including,
but not limited to, accelerating your Account Balance and
demanding immediate payment thereof.
MOBILE PHONES OR OTHER DEVICES: Smart phones, tablets
and other electronic devices can store your Card (such as
through a mobile wallet). This means they can be used to
make Purchases or other Transactions. Any such Transactions
are covered by this Agreement. Apps that use your Card
to make Transactions may have separate terms of use. We
are not responsible if you violate those terms, or for any
consequences resulting from any violation.
DEBT PROTECTION COVERAGE (SCHOOLS SAFETY NET SM):
I understand that Debt Protection Coverage is not required
by you to open my account. It will only be available if I sign
a separate Debt Protection Election Form. I understand and
agree that if I requested this coverage, you will add Debt
Protection fees to the Account Balance on the Billing Period
Closing Date of each month. I also understand and agree that
if I have requested this coverage, I will be obligated to pay
the fee(s) indicated on the Election Form which have been
included as part of my payment. If I decide to cancel such
coverage, I must do so in writing and I agree to pay all fees up
to the date you act on my request to cancel.
MILITARY LENDING ACT DISCLOSURES
Federal law provides important protections to members of
the Armed Forces and their dependents relating to extensions
of consumer credit. In general, the cost of consumer credit
to a member of the Armed Forces and his or her dependents
may not exceed an annual percentage rate of 36 percent. This
rate must include, as applicable to the credit transaction or
account: The costs associated with credit insurance premiums;
fees for ancillary products sold in connection with the credit
transaction; any application fee charged (other than certain
application fees for specified credit transactions or accounts);
and any participation fee charged (other than certain
participation fees for a credit card account). For MAPR and
repayment disclosures, please call our toll free number 1-800962-0990; option 8.
AGREEMENT AND BENEFIT CHANGES
CHANGES TO THIS AGREEMENT: Account and Agreement

terms are not guaranteed for any period of time. We may
change this Agreement for any reason and at any time,
subject to applicable law. This means that we can change
rates and fees that apply to your Account. It also means
we can add, remove, replace or modify provisions of this
Agreement. If required by applicable law, we will give you
notice of the changes. If you have the right to reject a change,
we will notify you and tell you how to reject. If we notify
you of a change, we may do so on your periodic statement
or send you a separate notice, either of which may be sent
to you in an electronic format if you have agreed to receive
notices from us electronically. Except as prohibited by law,
any change in terms will apply to your existing Account
Balance as well as to future Transactions. We may change the
terms of this Agreement based on information in your credit
report, market conditions, business strategy or for any other
reason.
CHANGING BENEFITS: We reserve the right to change or
discontinue any benefit, rewards program, service or feature
offered in connection with your Account, at any time and for
any reason.
ANNUAL PERCENTAGE RATES AND INTEREST CHARGES
VISA VARIABLE RATE PROGRAM: This section explains
how we calculate rates and interest charges applicable to
your Account. We use APRs to calculate interest charges
on your Account. Our Visa credit card program is a variable
rate program, which means that your APR may increase or
decrease each Billing Period while you maintain your Account
with us. The APR that applies to your Account may vary with
changes to the U.S. Prime Rate. The U.S. Prime Rate is the
highest U.S. Prime Rate (the “Index”) published in The Wall
Street Journal. In the event that the U.S. Prime Rate ceases
to be published, changes in your APR will be related to a
comparable index and we will inform you on your periodic
statement or through a separate notice.
Your APR is subject to change each Billing Period based on an
increase or decrease in the Index. We calculate your APR for
Transactions by adding an amount, which we call the Margin,
to the Index in effect as of the first Tuesday of the month
preceding the start date of each Billing Period. These dates
are referred to by us as “Adjustment Dates.” You can find the
initial Index, Margin, Daily Periodic Rate and corresponding
APR we use for your Account listed in the “Additional
Disclosure – Federal Truth-in-Lending Act”.
Your APR may increase if the Index increases and decrease if
the Index decreases. If your APR increases, then your interest
charges and Minimum Payment Due may increase. If the
Index changes, we will apply the new variable APR starting
from first day of the next billing cycle and that APR will remain
in effect for the entire billing cycle. APR is determined on
the first Tuesday of each month by adding a variable Index
in effect on the first Tuesday of the prior month to a Margin.
The Index is the Prime Rate published in the print edition
of The Wall Street Journal on the first Tuesday of the month
preceding the month in which the change takes effect. The
new APR will apply to existing balances, as well as balances
added to your Account after the change. We may waive an
increase in the APR when such an increase can be made, but
such a waiver will not be construed as a waiver of our right to
increase the APR at a future date when entitled to do so.
There is no minimum APR that can apply during the term of
this Agreement. The maximum APR that can apply during
the term of this Agreement is 18.00%. There are no annual (or
other) limitations on changes in the APR during the term of
this Agreement.
INTEREST CHARGES: Interest charges will be imposed on
Transactions only if you elect not to pay the entire Account
Balance shown on your periodic statement by the Payment
Due Date. If you elect not to pay the entire Account Balance
shown on your periodic statement by the Payment Due Date,
interest charges will be imposed on the unpaid Average Daily
Balance of Transactions from the previous statement closing
date and on the new Transactions from the date of posting
to your account during the current Billing Period, and will

continue to accrue until the closing date of the Billing Period
preceding the date on which the entire Account Balance is
paid in full.

• You must not enclose more than one check per envelope.

We calculate interest on your Account each Billing Period
by applying the Monthly Periodic Rate to the Average Daily
Balance (including new Transactions). The following explains
how we do this. To get the Average Daily Balance:

• You must follow any additional payment instructions
shown on your periodic statement.

• We start with the beginning balance of your account each
day.
• We add any new Transactions, fees and other charges
• We subtract any credits or payments credited as of that day
and any unpaid interest or other finance charges.
• This gives us the daily balance. Then, we add up all the
daily balances for the Billing Period and divide the total by
the number of days in the Billing Period. This gives us the
average daily balance.
GRACE PERIOD: You will not pay any interest on Purchases
if you pay the Account Balance, including any Balance
Transfers, in full by the Payment Due Date shown on your
periodic statement each Billing Period. We call this a grace
period on Purchases. Generally, you will have at least a 25-day
grace period from the close of each Billing Period to pay the
Account Balance without incurring additional interest. The
Payment Due Date disclosed on each periodic statement
provided to you is the last day of your grace period for that
statement’s billing cycle. If you do not pay the Account
Balance, including any Balance Transfers, in full by the Payment
Due Date in a Billing Period, you will pay interest on your
Purchases from the date they are posted to your Account. You
also will not have a grace period on Purchases again until you
pay the Account Balance in full by the Payment Due Date two
(2) Billing Periods in a row.
There is no grace period on Balance Transfers and Cash
Advances. This means you will pay interest on Balance
Transfers and Cash Advances from the date these transactions
post to your Account.
PAYMENTS
MINIMUM PAYMENT: Every month, you must pay at least the
Minimum Payment Due by the Payment Due Date shown on
your periodic statement. The Minimum Payment Due will be
either (1) 2.0% of your Account Balance or $20.00, whichever is
greater; or (2) your Account Balance if it is less than $20.00. In
addition, you must pay any amount past due, any late charge
and any amount over the Credit Limit.
APPLICATION OF PAYMENTS: We decide how to apply your
payments, up to the Minimum Monthly Payment amount, to
the balances on your Account. We will apply the Minimum
Monthly Payment amount in the following order: (1) unpaid
fees and charges, if any; (2) unpaid periodic interest charges
due on Purchases, Balance Transfers and Cash Advances, and
other unpaid finance charges; (3) outstanding balances of
Cash Advances, Balance Transfers and Purchases previously
billed, and (4) current Cash Advances, Balance Transfers and
Purchases. If you pay more than the Minimum Payment Due
amount, the amount in excess of the Minimum Payment Due
will be applied first to the balances subject to the highest APR
and then to balances subject to lower APRs, in descending
order of APRs until all balances subject to an APR are paid in
full. You must continue to make payments until you have paid
the Account Balance in full.
PAYMENT INSTRUCTIONS: You must follow the instructions
below when making a payment. If you do, we will credit the
payment to your Account as of the day we receive it.
• Payments should be sent to Schools Financial Credit Union,
Attention: Card Services Department, P.O. Box 60510 City of
Industry, CA 91716-0510.
• We must receive your payment on or before the Payment
Due Date in order for your Account to be credited by the
Payment Due Date.
• You must pay in U.S. Dollars.
• You must use a check or electronic debit issued by a
financial institution in the United States (do not mail cash).

• You must not include any restrictive endorsements on the
check.

• If you do not follow our payment instructions, we may not
accept your payment, or there may be a delay in crediting
your Account. Either may result in late fees and additional
interest charges to your Account. If you do not follow
the payment instructions in this Agreement or on your
periodic statement, we may accept your payment without
losing our rights.
PREPAYMENT OR IRREGULAR PAYMENTS: Though you need
only pay the Minimum Payment Due, you have the right to
repay your Account Balance at any time without penalty. You
will only be charged interest charges to the date you repay
your entire Account Balance. You may make larger payments
without penalty and this may reduce the total amount of
interest charges that you will repay. If you pay more than
the Minimum Payment Due in any month and there is still a
balance due, you must continue to make Minimum Payments
in future months. Any partial payment of your Account
Balance will not advance your next payment due date(s). You
understand and agree that any payment that (a) delays or (b)
accelerates the repayment of your Account Balance will (a)
increase or (b) decrease your Monthly Periodic interest charge.
PAYMENTS BY AUTOMATIC TRANSFER: By separate
agreement, you may authorize us to automatically transfer
the Minimum Payment Due from your Credit Union savings
or checking account. If you request payment by automatic
transfer, you understand and agree that no payment will
be made if there are insufficient or uncollected funds in
the designated savings or checking account to make the
scheduled payment. Should this event occur, you understand
and agree that you will not be released from making the
payment. Any automatic transfer you have requested will
remain in effect until you cancel it in writing or the Account
Balance is paid in full. To stop a payment by automatic
transfer, you may send us a letter requesting that the payment
be stopped. Your letter must be received by Schools Financial
Credit Union, Attention: Card Services Department, P.O. Box
526003, Sacramento, CA 95852, at least three (3) business days
before the automatic payment is scheduled to occur. We may
cancel this service at our discretion.
RECURRING PAYMENTS: The use of your Account to make
preauthorized electronic recurring bill payments constitutes
an “electronic fund transfer” as defined by the federal
Electronic Fund Transfer Act and Regulation E.
PAYMENTS MARKED “PAID IN FULL”: Payments marked “paid
in full” or other language used to indicate full satisfaction of
indebtedness may be accepted by us without being bound
by such language or waiving any rights under this Agreement.
We will accept full satisfaction of indebtedness only in a
written agreement, signed by an authorized representative of
the Credit Union.
CREDIT REPORTING
CREDIT REPORTING: In connection with our issuance of a
Card to you, we are allowed to obtain information about
you. We get it from Consumer Reporting Agencies and other
sources that provide consumer financial information. We are
allowed to use the information for:
• Renewal of your Account;
• Credit Limit increases or decreases;
• Administration or review of your Account, collection and
any other servicing;
• All other credit-related purposes connected with this
Agreement;
• Offers for other cards, insurance products and other
services; and
• Other uses permitted by law.
We report Account information in your name, as well as
information about you to Consumer Reporting Agencies, on

a monthly basis. The information we provide may appear on
your credit reports. This can include information about:
• Late Payments;
• Returned Payments;
• Over-the-credit-limit amounts; and
• Other violations of this Agreement.
If you think we have given incorrect information to a
Consumer Reporting Agency about you (or about an
Authorized User), contact us at 916-569-5400 and we will
research it. We will let you know if we agree or disagree with
you. If we agree with you, we will contact each Consumer
Reporting Agency we reported to and request a correction.
ACCOUNT INFORMATION, PRIVACY AND
COMMUNICATIONS
ACCURACY OF AND CHANGES TO ACCOUNT INFORMATION:
You represent and warrant that the information provided in
your credit application is accurate, and you agree to notify us
in writing immediately if this information changes. If you do
not, or if we ask you to verify your Account information and
you cannot, we may suspend or close your Account.
INFORMATION SHARING: You understand and agree that
we may share information about you and your Account as
permitted by applicable law. This includes information we
obtain from you and others. Our Privacy Policy, which is
enclosed with your new Account materials, describes reasons
the Credit Union can share its members’ personal information.
CONTACTING YOU: You agree that we (and/or our authorized
agents) may contact you at any phone number, email address
or mailing address you provide. This includes communications
to mobile, cellular/wireless or similar devices. We may contact
you by live operator, auto-dialer, prerecorded or artificial voice,
text or email. You agree to pay any charges assessed by your
plan provider for communications we send to you, as well as
communications you send to us.
CALL MONITORING: We may listen to and record telephone
calls between you and us to monitor and improve the quality
of service you receive.
NOTICES: We will send any notices to your billing address, or,
if you have agreed to receive notices from us in an electronic
format, we will send notices to you in an electronic form. We
consider a notice sent as soon as we mail it. We consider an
electronic notice sent as soon as we email it, unless we receive
notification that the email was undeliverable.
AUTHORIZED USERS
ACCOUNT USE BY AUTHORIZED USERS: You may request
to add one or more Authorized Users to your Account. If we
approve your request, use of your Account by an Authorized
User is subject to the terms of this Agreement. You must:
• Obtain permission from each Authorized User before
naming him or her as an Authorized User on your Account.
• Make a copy of this Agreement available to each
Authorized User.
• Pay us for all charges incurred by each Authorized User.
• Notify us to remove an Authorized User from your Account.
If we remove an Authorized User, we may close your
Account, open a new Account, and issue you a new Card.
We may limit the number of Authorized Users on your
Account.
You are responsible for:
• Any Transactions made by an Authorized User on your
Account.
• Any Transaction made by an Authorized User even if the
post date shown on your periodic statement for that
Transaction occurs after the date you ask us to remove the
Authorized User from your Account.
• Any Transactions made by others if an Authorized User
allows them to use your Account.
• Fees and charges resulting from any Transactions made by
an Authorized User or others if an Authorized User allows
them to use your Account.

ACCOUNT INFORMATION RIGHTS FOR AUTHORIZED USERS:
You authorize us to discuss your Account with an Authorized
User. This includes giving him or her access to your Account
information and history. You understand and agree that an
Authorized User may use and receive information about the
Account the same way you do. An Authorized User cannot
add other Authorized Users, adjust the Credit Limit or close
the Account.
WHAT CAN AUTHORIZED USERS DO?
• Report lost or stolen Cards
• Initiate billing disputes
• Change the billing address for your Account
• Obtain Account Information, such as Transaction histories
• Request periodic statement copies
• Make payments
• Request refund checks
INFORMATION ABOUT AUTHORIZED USERS: You agree to
give us certain personal information about each Authorized
User. You must let each one know that you will give us that
information and you must have his or her permission to do
so. You must have permission from each one to allow us to
share information about him or her as permitted by applicable
law. This includes information we may obtain from you, any
Authorized User and others. It also includes information
about their Transactions on the Account.
CREDIT REPORTING: We report information about this
Account to Consumer Reporting Agencies in the Authorized
User’s name that may appear on their credit report. This could
include information about:
• Late Payments;
• Returned Payments;
• Over-the-credit-limit amounts; and
• Other violations of this Agreement.
You understand and agree that you must let each Authorized
User know that we report Account information in his or her
name. Please also refer to the Credit Reporting section above.
DEFAULT, CLOSING OR SUSPENDING THE ACCOUNT
DEFAULT: You will be in default if:
You do not pay at least the Minimum Payment Due or other
required payment by the due date;
• You have a Returned Payment;
• You do not honor any of the terms of this Agreement;
• You make any false or misleading statements in any credit
application or credit update;
• Your creditworthiness is impaired;
• You file for bankruptcy or some other insolvency
proceeding is filed by or against you;
• You are declared incompetent or mentally incapacitated,
or you die; or
• You are in default under any other loan you have with us
(excluding real estate loans).
CLOSING OR SUSPENDING YOUR ACCOUNT; ACCELERATION:
If any of the events listed above occurs, we may temporarily or
permanently suspend any and all Account and Card privileges
and/or we may demand immediate payment of the Account
Balance. We may close or suspend your Account at any time,
without notifying you, as permitted by law. We are not liable to
you for any transactions that are denied due to our decision to
close, suspend or terminate your Account. You agree that you
will not attempt to make a Purchase or obtain a Cash Advance
after you have been notified that your privilege to use your
Account has been terminated. We may cancel your current
Card and issue you a substitute Card at any time. You may
close your Account at any time by notifying us in writing, and
you must include your signature. If we close or suspend your
Account, or if you close your Account, you understand and
agree that you remain obligated to repay the entire Account
Balance. You understand and agree that interest charges at the
APR as permitted under this Agreement will continue to accrue
until you repay your entire Account Balance.

TRANSACTIONS
REFUSAL OF THE CARD: Most Transactions require approval
of funds, which result in placing a hold against your Credit
Limit. We do not guarantee approval of Transactions. We
are not liable for those that are not approved, even if you
have enough available credit on your Account. We may also
limit the number of Transactions approved per day. We may,
although we are not required to, approve Transactions above
your available Credit Limit.
SUSPICIOUS ACTIVITY: We are committed to keeping your
financial transactions as secure as possible. We use a credit
card fraud detection system designed using neural network
technology that “learns” your credit card purchase patterns.
The system analyzes authorization requests for your Card in
real time and compares them to your purchase history as
well as current fraud trends. If we detect unusual transaction
patterns, we can take action to reduce the potential for fraud,
including but not limited to suspending credit privileges. As
your profile and transactions change over time, the system
updates its files. We reserve the right to identify Transactions
as unauthorized or fraudulent and subsequently to decline
those Transactions. We are not responsible for any loss or
damage arising out of any declined Transaction.
TRAVEL ADVISORY: A Transaction in a geographic area where
you do not usually use your Card may trigger the credit card
fraud detection system. We encourage you to provide us with
prior notice of any anticipated Card activity that may be out
of your ordinary pattern of Card Transactions, such as high
transaction volume and any anticipated transactions outside
the U.S. You may provide this notice by calling:
• Domestic: 916-569-5400
• International: 800-962-0990
• To verify Account activity if Card is blocked: 855-278-8272
MERCHANT FEES: Some merchants, including merchants
outside the U.S., may charge you a fee to use your Card for a
Purchase. The fee will be either a percentage of the amount
of your Purchase or a flat fee, and will be added to the amount
of your Purchase. Usually, a merchant will tell you about this
fee before you use your Card, but not always. We do not
control these fees and we cannot prevent them
PLAN MERCHANT DISPUTES: The Credit Union is not
responsible for the refusal of any plan merchant or financial
institution to honor the Account and/or Card. We are subject
to claims and defenses (other than tort claims) arising out of
goods or services you purchase with the Card only if you have
made a good faith attempt but have been unable to obtain
satisfaction from the merchant, and your Purchase was made
in response to an advertisement we sent or participated in
sending you.
RETURNS AND ADJUSTMENTS: If a merchant discloses a
policy such as “no returns,” “no refunds,” “no return or credit
without receipt,” “as is,” “store credit only” or “all sales final,” you
will be bound by that policy when you use your Card to buy
goods or services from that merchant. A merchant refund
to your Account will post to your Account as a credit. We do
not control when a merchant sends an Account credit. We
will choose how to apply the credit to your existing Account
Balance. If a credit fails to post to your Account, you may
request our help in having the credit applied to your Account
by sending us a copy of the credit receipt issued by the
merchant. You have the sole responsibility to obtain written
proof of credit and to retain copies of credit receipts until the
credit is properly applied to your Account. If your credits and
payments exceed what you owe us, we will hold and apply
this credit balance against future Transactions, or if it is $1.00
or more, refund it on your written request or automatically
after six (6) months.
RECURRING AUTHORIZED TRANSACTIONS: If you authorize
a merchant or any other person to charge your Account for
recurring Transactions, you must notify the merchant if:
• You want to discontinue these Transactions;
• Your Account is closed;
• Your Account number changes;

• Your Card expiration date changes.
You are responsible for reinstating any recurring authorized
Transactions.
TERMS AND CONDITIONS APPLICABLE TO VISA
CONVENIENCE CHECKS
CHECK USES: Visa Convenience Checks (including Balance
Transfer checks) are checks that the Credit Union may send
you to access your Account from time to time. The following
terms will apply to the use of those checks unless otherwise
disclosed with the checks. You can use your Convenience
Checks to purchase goods and services, to obtain cash up
to the amount of your Credit Limit, or to conduct Balance
Transfers up to the amount of your Credit Limit. Use of
Convenience Checks to purchase goods and services or
to obtain cash up to the amount of your Credit Limit is
considered a Cash Advance on your account. The Credit
Union will charge interest beginning as of the date the Credit
Union receives the Convenience Check. You cannot avoid
paying interest on Convenience Check transactions. Any
special rules applicable to credit card purchases described
in this Agreement or any other features pertaining to card
purchases do not apply to Convenience Checks.
LIMITATIONS: We are not required to honor a Convenience
Check that will cause you to exceed your Credit Limit. We
may not pay a Convenience Check if at the time that it is
presented:
• You are in default or we have suspended, terminated or
canceled your Account;
• The Convenience Check is not in the form we have issued
to you;
• Your signature or the payee’s name or endorsement is
missing on the Convenience Check or the Convenience
Check appears altered; or
• Your Convenience Check is post-dated.
Convenience Checks may be used only by the person(s)
whose name(s) is/are printed on the check. You are
responsible for all authorized use of Convenience Checks.
You may not use Convenience Checks to make a payment
on any other obligation you have with the Credit Union,
including paying any amount that you owe us pursuant to
this Agreement. Certain merchants may inform you of their
intent to convert your Convenience Check payment to an
electronic ACH debit. For mailed payments, this notification
will be provided at the time you receive a bill. For payments
made in person, this notification will be provided at the
time payment is made. You understand and agree that
Convenience Checks are ineligible for conversion to an ACH
debit and if presented by a merchant to us for payment,
we are required to reject and return the entry. Using
Convenience Checks for payments to merchants who have
notified you of their intent to convert your check to an ACH
debit may result in merchant returned item fees and/or late
charges. You further understand and agree that you may not
attempt to authorize a one-time advance from your Account
via ACH by providing check information (such as the routing,
account and serial numbers) to a merchant or other payee in
person, via the Internet or by telephone for the purpose of
having such merchant or other payee electronically initiate a
funds transfer. The Credit Union will not be liable for any fees
you incur as a result of the Credit Union’s failure to honor a
Convenience Check that is converted to an ACH debit. Your
periodic statement will itemize Convenience Checks posted to
your Account during the Billing Period. Convenience Checks
paid by the Credit Union will not be returned to you with your
periodic statement.
STOP PAYMENT: Provided your request is timely, you may
order a stop payment on a Convenience Check drawn on
your Account. To stop payment on a Convenience Check,
you must call us at 916-569-5400 during regular business
hours and provide us with the following information: the
Account number, the payee, any check number that may be
applicable, and the exact amount of the Convenience Check.
If you order a stop payment on a Convenience Check orally,
the order will be valid for only fourteen (14) days thereafter,

unless confirmed in writing. Written stop payment orders
will remain in effect only for six (6) months, unless renewed
in writing. You have the burden of establishing the fact and
amount of loss resulting from payment contrary to a binding
stop payment. The Credit Union will charge a Convenience
Check Stop Payment Fee when you place a stop payment on a
Convenience Check which will be billed to your Account. The
Credit Union is not required to notify you when a stop
payment order expires. If the Credit Union re-credits your
Account after paying a Convenience Check over a valid and
timely stop payment order, you agree to sign a statement
describing the dispute with the payee, to assign to the Credit
Union all of your rights against the payee or other holders
of the check and to assist the Credit Union in any legal
action. You agree to indemnify and hold the Credit Union
harmless from all costs and expenses, including attorneys’ fees,
damages or claims related to the
Credit Union honoring your stop payment request or in failing
to stop payment of an item as a result of incorrect information
provided to the Credit Union or the giving of inadequate time
to act upon a stop payment request.
SURRENDER OF CONVENIENCE CHECKS: Convenience
Checks are the Credit Union’s property; the Credit Union
reserves the right to revoke them at any time. You agree to
return them at the Credit Union’s request.
MISCELLANEOUS
PROMOTIONAL RATE OFFERS: From time to time and at
our discretion, we may offer you a promotional APR for all or
any part of your Account Balance, Balance Transfer or future
transactions. The period of time for which the promotional
APR applies may be limited. Any applicable promotional
APR, the corresponding periodic rates, and the period of time
during which they are in effect will appear on the offer. Any
promotional rate offer will be subject to the terms of the offer
and this Agreement.
LOST OR STOLEN CARD, NOTIFICATION AND LIABILITY:
You will notify us IMMEDIATELY if you believe that your Card,
Account number, PIN or any combination of the three has
been lost or stolen by immediately calling us at 916-569-5400
between 9:00 a.m. and 6:00 p.m. PST, Monday through Friday,
excluding holidays and weekends or after Credit Union hours
at 855-278-8272/International Number 1-303-967-1096.
Telephoning is the best way of keeping your possible losses
down. You understand that your total liability to us will not
exceed $50.00 for any Account and/or Card Transactions
resulting from the loss, theft or other unauthorized use of the
Account and/or Card that occurs prior to the time you give
notice to us. Your liability for unauthorized use may be lower
in cases of Visa Credit Card fraud in accordance with current
Visa U.S.A., Inc. operating regulations.
You agree that in the event of a lost, stolen, not received,
counterfeited card or fraudulent activity on your Account,
you and all parties given access to the Account will complete
an affidavit of forgery in a form approved by the Credit
Union. You also agree to assist us in determining the facts,
circumstances and other pertinent information related to any
loss, theft or possible unauthorized use of your Card, Account
number or PIN and to comply with such other procedures as
we may require in connection with our investigation.
LIMITATION OF LIABILITY FOR VISA TRANSACTIONS: If
there is an unauthorized use of your Visa Credit Card, and the
transaction takes place on the Visa network, then your liability
will be zero ($0.00). This provision limiting your liability does
not apply to Visa Corporate Credit Card or Visa Purchasing
Credit Card Transactions, ATM cash disbursements processed
on non-Visa or non-Plus networks, or non-Visa PIN-less
debit transactions. Additionally, your liability with respect to
unauthorized transactions may be greater than the above zero
($0.00) liability limit, to the extent allowed under applicable
law.
INACTIVE ACCOUNT: If your Account does not have any
activity for 12 months, it will be considered an inactive
account and your ability to take advances against your Credit
Limit may be suspended. If your Account is inactive for 12

months, we may close it.
PERIODIC STATEMENTS: Your Card or other Account activity
will be reflected on your periodic statement (Statement). We
will send you a Statement for each Billing Period in which
Transaction activity has occurred on your Account. Statement
will identify the merchant, electronic terminal or financial
institution at which transactions were made, but sales, cash
advance, credit or other receipts cannot be returned with
the Statement. You agree to retain copies of such receipts
furnished at the time of the transaction in order to reconcile
your Statement. Statements will be mailed or delivered
electronically if you have agreed to receive notices from us in
an electronic format only to the address of the person named
first on the Account.
ASSIGNMENT: We may sell, transfer or assign this Agreement
and your Account to a third party at any time without
notifying you. You may not sell, assign or transfer your
Account or any of your obligations under this Agreement.
ENFORCING THIS AGREEMENT: We will not lose our rights
under this Agreement because we delay in enforcing them
or fail to enforce them. If any provision of this Agreement
is found to be unenforceable, all other provisions of the
Agreement will remain in effect.
INTEGRATED DOCUMENT(S): You understand and agree
that any separate sheet of paper, which is delivered together
with this Agreement and incorporates this Agreement by
reference, is an integrated part of this Agreement. Any future
amendments to this Agreement will be labeled as such and
will form an integrated part of this Agreement.
COLLECTION COSTS: To the extent permitted by law, you
are liable to us for our legal costs if we refer collection of your
Account to an attorney who is not our salaried employee.
These costs may include reasonable attorneys’ fees, as well as
costs and expenses of any legal action. You understand and
agree that interest charges will continue to accrue at the APR
permitted under this Agreement until you repay your entire
Account Balance.
UNFORSEEN CIRCUMSTANCES: From time to time, our
services might be unavailable due to circumstances beyond
our control, such as fires, floods, natural disasters, system
failures or other unpredictable events. When this happens,
you may not be able to use your Card or obtain information
about your Account. We are not responsible or liable if this
happens.
GOVERNING LAW: You understand and agree that this
Agreement is made in California and will be governed by the
laws of the State of California to the extent that California
law is not inconsistent with controlling federal law. You also
understand and agree that California’s choice of law rules
will not be applied if they would result in the application of
non-California law.
MEMBERSHIP REQUIREMENT: You understand and agree
that you must be and remain a member in good standing
with us to be eligible for continuing Account and/or Card
privileges including future Transactions. You understand and
agree that we may suspend or close the Account and/or Card
privileges during any period in which you do not maintain
your membership with us.
SEVERABILITY AND FINAL EXPRESSION: This Agreement
is the final expression of the terms and conditions of your
Account. This Agreement may not be contradicted by
evidence of any alleged oral agreement. Should any part of
this Agreement be found to be invalid or unenforceable, all
other parts of this Agreement shall remain in effect and fully
enforceable to the fullest extent possible.
COPY RECEIVED: You acknowledge receipt of a copy of this
Agreement and agree to accept its terms.
NOTICE: See the statement below for important information
regarding your right to dispute billing errors.
YOUR BILLING RIGHTS: KEEP THIS DOCUMENT FOR
FUTURE USE
This notice tells you about your rights and our responsibilities
under the Fair Credit Billing Act.

What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Cardholder Services
PO Box 3112
Tampa, FL 33601
In your letter, provide following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of Problem: If you think there is an error on
your bill, describe what you believe is wrong and why you
believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount
you think is wrong.
You must notify us of any potential errors in writing. You
may call us; but if you do, we are not required to investigate
any potential errors and you may have to pay the amount in
question.
What will happen after we receive your letter:
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you
that we received your letter. We will also tell you if we have
already corrected the error.
2. Within 90 days of receiving your letter, we must either
correct the error or explain to you why we believe the bill
is correct.
While we investigate whether or not there has been an
error:
• We cannot try to collect the amount in question or report
you as delinquent on that amount.
• The charge in question may remain on your statement, and
we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you
are responsible for the remainder of your balance.
• We can apply any unpaid amount against your Credit Limit.
After we finish our investigation, one of two things will
happen:
• If we made a mistake: You will not have to pay the amount
in question or any interest or other fees related to that
amount.
• If we do not believe there was a mistake: You will have to
pay the amount in question, along with applicable interest
and fees. We will send you a statement of the amount you
owe and the date payment is due. We may then report
you as delinquent if you do not pay the amount we think
you owe.
If you receive our explanation but still believe your bill is
wrong, you must write to us within 10 days telling us that
you still refuse to pay. If you do so, we cannot report you as
delinquent without also reporting that you are questioning
your bill. We must tell you the name of anyone to whom
we reported you as delinquent; and we must let those
organizations know when the matter has been settled
between us. If we do not follow all of the rules above, you do
not have to pay the first $50 of the amount you question even
if your bill is correct.
Your rights if you are dissatisfied with your credit card
purchases:
If you are dissatisfied with the goods or services that you have
purchased with your credit card, and you have tried in good
faith to correct the problem with the merchant, you may
have the right not to pay the remaining amount due on the
purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state
or within 100 miles of your current mailing address, and
the purchase price must have been more than $50. (Note:
Neither of these are necessary if your purchase was based
on an advertisement we mailed to you or if we own the
company that sold you the goods or services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with
a check that accesses your credit card account do not
qualify.

3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied
with the purchase, you will contact us in writing at:
Cardholder Services
PO Box 3112
Tampa, FL 33601
While we investigate, the same rules apply to the disputed
amount as discussed above. After we finish our investigation,
we will tell you our decision. At that point, if we think you
owe an amount and you do not pay, we may report you as
delinquent.

FEE

AMOUNT

ABOUT THE FEE

Annual Fee

None

Late Payment Fee

$15

Returned Payment Fee

None

Cash Advance Fee

Either $5 or 2.5% of the
amount of each cash
advance, whichever is
greater

Balance Transfer Fee

None

Foreign Transaction
Fee

1% of each international
transaction requiring a
currency conversion, or,
0.8% of each international
transaction in U.S. dollars

See section entitled “Foreign Transactions” below for
additional details.

Replacement Card Fee

One (1) free replacement
card per rolling 12-month
period; $10 each additional
replacement card.

Except as prohibited by applicable law, you may be
charged a Replacement Card Fee for all cards issued
other than the standard re-issue card.

Rush Card Fee

$20

We will charge you a Rush Card Fee to rush each
requested replacement card.

Convenience Check
Stop Payment

$28

We will charge you a Convenience Check Stop
Payment Fee when you place a stop payment on a
Convenience Check.

We will charge you a Late Payment Fee of up to $15
with respect to any Billing Period if the Minimum
Payment Due is not paid within fifteen (15) days after
the Payment Due Date. However, the Late Payment
Fee will not exceed the amount of the Minimum
Payment Due.

FOREIGN TRANSACTIONS: Purchases, Cash Advances (at an
ATM or branch of a financial institution) and credits made in
foreign currencies will be billed to your Account in U.S. dollars.
The conversion to U.S. dollars will be made in accordance with
the Visa operating regulations for international transactions. In
the event that an international transaction is converted to U.S.
dollars the exchange rate between the transaction currency
and the billing currency used for processing international
transactions will be: (1) a rate selected by Visa from the range
of rates available in wholesale currency markets for the applicable central processing date, which rate may vary from the
rate Visa itself receives; or (2) the government-mandated rate
in effect for the applicable central processing date. The rate
in effect on the applicable processing date may differ from
the rate on the date you used your Card. When a credit to
the account does not fully offset a charge to the account due
to changes in the rate, you are responsible for the difference.
For Purchases and Cash Advances (at an ATM or branch of a
financial institution), we will charge a Foreign Transaction Fee
in an amount equal to 0.8% of the amount of the Purchase or
Cash Advance for single currency international transactions
(transactions made internationally without a currency conversion) or 1% for multi-currency international transactions
(transactions made internationally that require a currency
conversion). The Foreign Transaction Fee will be added to the
amount of the Purchase or Cash Advance. The 0.8% Foreign
Transaction Fee for single currency international transactions
does not apply to transactions originating on U.S. military
bases, U.S. embassies and consulates.
The above fees for the Billing Period will be shown on your
periodic statement.

BR154 10/2017
M#123198

